<html>
<title> - U.S. DEPARTMENT OF EDUCATION: INFORMATION SECURITY REVIEW</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








       U.S. DEPARTMENT OF EDUCATION: INFORMATION SECURITY REVIEW

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 2015

                               __________

                           Serial No. 114-84

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-383 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                     
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
    Katie Bailey, Government Operations Subcommittee Staff Director
                         Michael Flynn, Counsel
                    Sharon Casey Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 2015................................     1

                               WITNESSES

Mr. Greg Wilshusen, Director, Information Security Issues, U.S. 
  Government Accountability Office
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Kathleen S. Tighe, Inspector General, U.S. Department of 
  Education
    Oral Statement...............................................    33
    Written Statement............................................    35
Mr. Danny A. Harris, Chief Information Officer, U.S. Department 
  of Education
    Oral Statement...............................................    46
    Written Statement............................................    48

                                APPENDIX

Rep. Connolly Opening Statement..................................    84
Department of Education FITARA Implementation Scorecard..........    86
FY2015 Cybersecurity Sprint Results..............................    87

 
       U.S. DEPARTMENT OF EDUCATION: INFORMATION SECURITY REVIEW

                              ----------                              


                       Tuesday, November 17, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Jordan, Walberg, 
Amash, Gosar, Gowdy, Massie, Meadows, Mulvaney, Buck, Walker, 
Blum, Hice, Carter, Grothman, Hurd, Palmer, Maloney, Clay, 
Connolly, Kelly, DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order. Without objection, the 
chair is authorized to declare a recess at any time.
    We appreciate you joining us for our review of the United 
States Department of Education: The Information Security 
Review.
    And at this time I would like to yield to the gentleman 
from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Chairman Chaffetz.
    Today's hearing is an opportunity, an opportunity to start 
managing the cybersecurity vulnerabilities and risks that this 
nation faces every day.
    I said it during the July hearing this committee held on 
the data breach of the Office of Personnel Management. It is an 
undeniable fact that America is under constant attack. I am not 
talking today about bombs dropping or missiles launching, but 
the constant stream of cyber weapons aimed at our data.
    The good news for this hearing, we are not talking about a 
data breach today. But, Dr. Harris, I want my message to be 
heard loud and clear. You do not want to be before this 
committee explaining to the American people how you left a PII 
of the sons and daughters of millions of Americans vulnerable 
to hackers.
    And it is important to realize that this is not a problem 
without solutions. The GAO and the inspector general have made 
recommendations, not to mention the standards, policies, and 
programs of OMB, DHS, and NIST. What I am trying to tell you is 
that this is not an issue of technology. This is an issue of 
management and leadership.
    Dr. Harris, you are on the spot today but don't think you 
are being singled out. I have put and we have put Federal CIOs 
and agency heads on notice time and again. Whether it be on 
FITARA implementation, data privacy, encryption, or compliance 
with Federal information security policies and practices, this 
committee will be watching. We are talking to the inspectors 
general and reading their recommendations. Federal CIOs and 
agency heads need to be implementing the recommendations of the 
IGs and GAO or be able to explain to me and this committee why 
they didn't.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman. And I want to 
just kind of--let's stick to the facts here and go through some 
key numbers and metrics because the liability, the 
vulnerability is enormous.
    Roughly 17 years ago the liability to the taxpayers in this 
category--we are talking about the Department of Education. 
Outstanding student loans 17 years ago was roughly $150 
billion. Today, taxpayers are liable for roughly $1.18 
trillion, making the Department of Education essentially the 
size of Citibank.
    Most people don't realize how large and enormous of a 
financial institution the Department of Education is. There are 
roughly 40 million borrowers utilizing the Department of 
Education as essentially their bank and financial institution.
    This is an organization, the Department of Education, that 
spends some $683 million--spent $683 million this year on 
information technology.
    [Slide.]
    Chairman Chaffetz. But as we put up this slide, doing a 
self-assessment, if we can do the FITARA self-assessment, this 
is also an organization based on their self-assessment gets an 
overall ``F'' grade as it relates to IT. So we can look at data 
center consolidation, IT portfolio review savings, incremental 
development, and risk assessment transparency, earning it an 
``F''.
    Chairman Chaffetz. You can take down that slide now.
    This is a system that we are not necessarily--all the 
systems are utilizing encryption. This is a department where 
the OMB cyber sprint exercise--if you would put up the second 
slide.
    [Slide.]
    Chairman Chaffetz. OMB has engaged in the cyber sprint. It 
is one of, I believe, only four agencies in all of Federal 
Government where they scored a negative 14 percent, negative 14 
percent. You can put down that slide. We can provide that 
information. It is very hard to read in that group.
    Chairman Chaffetz. But one of four institutions where it 
actually scored negative on assessment of, say, dual 
authentication. In fact, the inspector general went in and 
looked at the Department of Education's IT operations, and the 
report finds ``the department-wide information systems continue 
to be vulnerable to security threats.'' The inspector general 
made 16 findings, 6 of which are repeat findings. The inspector 
general made a total of 26 recommendations, 10 of which are 
repeat recommendations.
    So how big is the vulnerability? We talked about it in 
terms of dollars. Americans need to know that the Department of 
Education holds roughly 139 million Social Security numbers in 
the Central Processing System. But let's also remember that 139 
million Social Security numbers isn't necessarily all of them 
because it does not include all the systems. That is just the 
Central Processing System. It does not include information for 
parents who submitted information but whose children did not 
get aid. If your child applies for aid, you are going to have 
perhaps your mother's information, perhaps your father's 
information in there as well. That is also in the system and 
potentially very vulnerable.
    The Central Processing System processes Federal aid 
applications at roughly 22 million of them per year. We have 
been talking a lot about the vulnerability of the Office of 
Personnel Management, OPM, understanding the vulnerability 
where we believe it is 22 million. The vulnerability at the 
Department of Education, we are talking about a trillion 
dollars but we are also talking about over 130 million 
Americans.
    The Department has 184 information systems, 184. This is 
just the Department of Education. One hundred and twenty are 
run by contractors, 29 are valued by OMB as high assets. But 
one of the concerns that we have here is that the inspector 
general also looked at what's called the COD, the Common 
Origination and Disbursement system. It is deemed as a major 
system. It is what is actually the system used to disburse 
Federal student aid to students and borrowers. This year alone 
there was roughly $109 billion in direct loans and $31 billion 
in Pells disbursed through the COD.
    One of the fundamental problems that we have had here is 
access to that information and allowing the inspector general 
to be able to go in and peak at the system, test and verify it. 
But this is also a problem.
    Another key system is the National Student Loan database, 
which houses significant borrower information. It is called the 
NSLDS, the National Student Loan database, has 97,000 accounts. 
This is the people that have access to student loans. These are 
the schools, the contractors. That is a lot of people being 
able to tap in and have access to this system.
    But it is our understanding that only 5,000 of the 97,000 
have actually undergone a background check, which again begs 
the question about allowing access to information that could be 
potentially vulnerable. It begs a lot of questions about 
safety, security, and integrity of this system.
    We are also going to hear--and we have a hearing today on 
the Department of Education, but we also have hearings tomorrow 
on the Department of Education. And part of what we are going 
to hear tomorrow is that Department of Education was 
potentially responsible for roughly $4 billion in improper 
payments, $4 billion.
    So we go home, we talk to our constituents about roads, 
bridges, infrastructure, about getting more money in the 
classroom. Utah has the lowest, lowest in the Nation. We are 
not proud of it, lowest spending per pupil in the Nation, and 
yet the Department of Education sends out $4 billion in 
improper payments. You know what a difference that would make 
in my classroom where we have got way too many kids in the 
classroom?
    I am just telling you, it has become a monster, an absolute 
monster. We don't know who is in there. We don't know what they 
are doing. We know there are improper payments. And the 
inspector general, the person we trust the most to go in there 
and take a look at it can't even have access because there are 
so many contractors who say no, we are not going to let you 
look in there; no, you can't see it. And that is a problem. 
That is a problem that has got to change.
    Chairman Chaffetz. So I have gone well past my time. There 
is lots to talk about over the next 2 days. This is going to be 
a good, healthy hearing. I appreciate members' participation. 
There are a lot of competing hearings. You are going to see 
members coming and going as the second day back, 10:00 a.m., 
there are a lot of hearings going on. But this should be a good 
hearing.
    And I now recognize the ranking member, Mr. Connolly, for 
his opening statement.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you to our 
panelists for being with us today.
    I appreciate the opportunity to examine the information 
technology and security programs and practices within the 
Department of Education and the Federal Student Aid program.
    This department might not seem like an obvious target of 
cyber-related threats, but it is responsible for managing and 
securing student loan portfolios of more than $1 trillion, as 
you indicated, Mr. Chairman, along with the personal 
information of more than 50 million students between Federal 
loan borrowers, Pell Grant recipients, and other assistance 
programs. And as you indicated, Mr. Chairman, that may be the 
tip of the iceberg when one looks at over 130 million Social 
Security numbers available to the Department.
    In the wake of two massive data breaches disclosed by the 
Office of Personnel Management earlier this year, which 
collectively put at risk the personal information of more than 
28 million current and former Federal employees and their 
families, including Members of Congress like myself, every 
Federal agency ought to be reassessing its own information 
security protocols and reinforcing efforts to detect and deter 
cyber attacks and other threats.
    Perhaps this should be the first of a recurring set of 
hearings to gauge successes and shortfalls across agencies when 
it comes to protecting the vast amount of sensitive information 
held by the Federal Government. I know Mr. Hurd and Mr. Meadows 
and yourself, Mr. Chairman, intend to do that certainly with 
the implementation of FITARA, but maybe we need to do it with 
cybersecurity as well.
    I think we would find most agencies in a similar situation 
to this department, which has made some progress in fortifying 
its information security defenses in recent years but continues 
to struggle with recurring vulnerabilities.
    In its latest report in the Department's efforts to 
implement the Federal Information Security Modernization Act, 
FISMA, the inspector general identified 16 findings with 26 
recommendations, one-third of which are repeat recommendations, 
Dr. Harris. Last year's audit found that the Department did not 
perform adequate remediation of weaknesses identified in 
previous OIG audit reports. That is very troubling in light of 
the OPM breach.
    While it appears the Department has beefed up its 
remediation efforts, there is still obviously much work to be 
done, and I am confident that unfortunately this is not the 
only department with these kinds of problems.
    This year's audit flagged weaknesses across four key areas: 
continuous monitoring, configuration management, instant 
response and reporting, and remote access management. For 
example, the IG found user accounts from inside Federal 
employees and outside Federal contractors with excessive or 
unnecessary permissions and unauthorized access to data. In 
fact, one of the Department's IT service contractors could not 
verify to the IG's satisfaction that its other non-Federal 
customers did not have unauthorized access to the Department's 
data through a shared service, very troubling.
    Even more troubling, the OIG said it was able not only to 
gain access to the Department's network through a simulated 
attack, but also it was able to launch other attacks on systems 
connected to the Department while going completely undetected.
    Another critical finding in the IG's report that applies to 
the Department of Education, as well as other Federal agencies, 
is that existing information security protocols, if implemented 
and implemented consistently throughout the organization, could 
and should be effective. That is the good news.
    Nowhere is this more important than in cybersecurity and 
privacy training for new employees. To be successful here, we 
must bring about a wholesale cultural revolution so that 
Federal agencies and the workforce understand the critical 
importance of cyber safety, including basic elements of what 
may be called cyber hygiene.
    Along those same lines, we must hold agencies accountable 
for implementation of the bipartisan FITARA legislation on 
which we recently held a hearing and issued a preliminary 
scorecard for agency progress. The chairman has already noted 
that scorecard for this department. One of the key reforms of 
that legislation, which I was pleased to co-write with the 
former chairman of this committee, is enhancing CIO authorities 
to increase transparency and improve risk management to address 
all of these issues.
    Unfortunately, the Department of Education received an 
``F'' rating on this preliminary assessment based in large part 
on its self-reporting of few IT investments, delivering 
functionality, and their ability to produce savings. That is a 
snapshot in time, and we are hoping that it is a work in 
progress and that the next snapshot will show that progress. I 
look forward to hearing from Mr. Harris about the steps he is 
taking to address both FISMA and FITARA challenges.
    The severity of recent data breaches in both public and 
private sectors in recent years underscores the urgency for 
Federal agencies and Congress to get serious about investing in 
IT solutions that better secure our data and taking actions 
that will be clear deterrents for would-be hackers. This is a 
challenge that has confounded both Democratic and Republican 
administrations.
    The number of IT security incidents reported by Federal 
agencies increased by 1,121 percent from the reporting period 
in the last several years. Unfortunately, these attacks on our 
private industries and government simply reflect the new normal 
of the 21st century where nation states represent advanced and 
persistent threats against one another, constantly seeking to 
gain unauthorized access to sensitive and classified 
information on each other's people, intellectual property, and 
sensitive security information. The likes of North Korea, 
China, Russia, and Iran are increasingly testing the waters and 
becoming emboldened by the lack of reprisal or effective 
deterrents.
    The House earlier this year did pass two bills on a 
bipartisan basis to encourage voluntary sharing of information 
between the public and private sectors, but information-sharing 
is not enough. We need to get serious about strengthening our 
cyber workforce both within the Federal Government and among 
our private sector partners. We also need to devise more 
effective data breach notification policies so that victims are 
aware of the fact they may have been compromised.
    As my colleagues know, it has now been almost 4 months 
since the breach on background records was announced, and 
notifications are still being made.
    So, Mr. Chairman, I appreciate this opportunity to look at 
what the Department of Education is doing right and what it can 
improve upon with respect to securing data, but obviously, this 
can't be the only hearing. Successfully detecting, defending, 
and deterring cyber threats will take a concerted effort across 
all agencies and among our private partners. And I thank you, 
Mr. Chairman, because this hearing clearly sends a signal this 
committee will take that charge seriously.
    I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    And it is now my pleasure to recognize our witnesses. We 
are pleased to welcome Mr. Greg Wilshusen, who currently serves 
as the director of Information Security Issues at the 
Government Accountability Office where he leads cybersecurity- 
and privacy-related studies and audits of the Federal 
Government and critical infrastructure.
    We also are joined by Ms. Kathleen Tighe, who serves as the 
inspector general of the United States Department of Education. 
Ms. Tighe also chairs the Council of Inspectors General on 
Integrity and Efficiency, and in 2011 was appointed by 
President Obama to the Recovery, Accountability, and 
Transparency Board and the Government Accountability and 
Transparency Board.
    And we also are joined by Dr. Danny Harris, who currently 
serves as the chief information officer at the United States 
Department of Education. Prior to his tenure as CIO, Dr. Harris 
served as the chief financial officer at the Department of 
Education where he started his career as a computer analyst.
    We welcome you all.
    Pursuant to committee rules, witnesses are to be sworn 
before they testify, so if you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Please be seated, and let the 
record reflect that the witnesses all answered in the 
affirmative.
    We would like some time to be set aside for some robust 
discussion, so we would appreciate it if you would limit your 
testimony to 5 minutes. And obviously your entire written 
statement will be made part of the record.
    We will start with Mr. Wilshusen, and he is now recognized 
for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF GREG WILSHUSEN

    Mr. Wilshusen. Chairman Chaffetz, Ranking Member Connolly, 
and members of the committee, thank you for the opportunity to 
testify at today's hearing on information security at the 
Department of Education.
    As requested, my statement will address information 
security of Federal agencies, including Education.
    Before I begin, if I may, I would like to recognize several 
members of my team who were instrumental in developing my 
statement and performing the work underpinning it. Larry 
Crosland, Assistant Director; and Rosanna Guerrero led this 
body of work. Lee McCracken and Christopher Businsky also made 
significant contributions.
    Mr. Chairman, for 18 years GAO has designated Federal 
information security to be a government-wide high-risk area. In 
February we expanded this area to include protecting the 
privacy of personally identifiable information. Recent security 
incidents such as the OPM data breaches underscore the 
vulnerability of Federal systems and highlight the evolving and 
sophisticated nature of the cyber threats that confront Federal 
security personnel on a daily basis.
    Over the last several years, Federal agencies have reported 
a sharp increase in the number of information security 
incidents, which have risen from about 5,500 in fiscal year 
2006 to over 67,000 in fiscal year 2014, an increase of 
approximately 1,100 percent. Similarly, the number of incidents 
involving personally identifiable information has more than 
doubled since fiscal year 2009 to over 27,000 in fiscal year 
2014.
    Given the risks posed by cyber threats and the increasing 
number of incidents, it is crucial that Federal agencies take 
appropriate steps to secure their systems and information. 
However, we and agency inspectors general have continued to 
identify significant deficiencies in controls protecting 
Federal information systems. For example, 19 of the 24 agencies 
covered by the Chief Financial Officers Act reported a 
significant deficiency or material weakness in information 
security for financial reporting purposes in fiscal year 2014. 
For its part, the Department of Education reported a 
significant deficiency which is less severe than a material 
weakness but important enough to merit attention by those 
charged with governance.
    As we previously reported for fiscal year 2014, nearly each 
of the 24 agencies, including Education, reported weaknesses in 
most of the five general control categories that we track. Like 
21 other agencies, Education had weaknesses reported in 
controls that are intended to prevent, limit, and detect 
unauthorized or inappropriate access to computer networks and 
sensitive information.
    Similar to most agencies, Education also had weaknesses 
reported in its configuration management of its computing 
system, continuity of operation controls, and management of its 
information security program. On the plus side, unlike 15 other 
agencies, Education did not have weaknesses reported in its 
controls to segregate incompatible duties to--among different 
individuals.
    For deficiencies in security controls and the efforts 
required to mitigate them, inspectors general at 23 of the 24 
agencies, including Education, declared information security as 
a major management challenge for their agency in fiscal year 
2014.
    Over the past 6 years, GAO has made about 2,000 
recommendations aimed at improving their information security 
programs and controls. To date, agencies have implemented about 
58 percent of them.
    Recent actions initiated by the Federal chief information 
officer such as the 30-day Cybersecurity Sprint and issuance of 
a Cybersecurity Strategy and Implementation Plan indicate a new 
level of attention by OMB to the security of Federal networks, 
systems, and data at civilian agencies. Effective and timely 
implementation of this strategy and the rest of GAO's 
recommendations, as well as those made by agency IGs, will 
bolster agencies' ability to protect their information systems 
and information.
    Mr. Chairman, Ranking Member Connolly, members of the 
committee, this concludes my opening statement. I'd be happy to 
answer your questions.
    [Prepared statement of Mr. Wilshusen follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Chaffetz. Thank you.
    Ms. Tighe, you are now recognized for 5 minutes.

                 STATEMENT OF KATHLEEN S. TIGHE

    Ms. Tighe. Good morning. Thank you, everyone, for inviting 
me here today to discuss the work of the U.S. Department of 
Education Office of Inspector General involving information 
security and technology security.
    The explosion of IT has revolutionized the way the world 
does business, and the Department is no exception. Virtually 
every department program relies heavily on information systems. 
Evaluating whether those information systems are secure is a 
top priority for my office.
    As noted, the Department reports 184 information systems in 
its inventory, more than 120 of which are operated by 
contractors or subcontractors, some of which contain sensitive 
financial information and PII pertaining to millions of 
students, their parents, and others. These systems are accessed 
by thousands of authorized individuals, including department 
employees, contractor employees, and other third parties such 
as college financial aid administrators.
    Protecting its complex IT infrastructure from constantly 
changing cyber threats is an enormous responsibility and 
challenge for the Department and its Office of Federal Student 
Aid. We examine the Department and FSA's information security 
controls every year through our FISMA audit and in the annual 
audits of the Department and FSA's financial statements. We 
also have conducted other IT security-related work.
    As detailed in our written testimony, our work has 
identified deficiencies that impact the security of information 
within the Department and contractor systems. For example, 
since 2009, including this year, audits of the Department and 
FSA's financial statements found persistent IT control 
deficiencies in key financial systems, including personnel 
security, access controls, and others.
    Since 2011, our FISMA audits have identified weaknesses in 
security control areas, including a number of repeat findings.
    Although our 2015 FISMA audit found that the Department has 
made progress and has taken steps to address repeat findings, 
our work determined that more is needed.
    This year's FISMA audit had two new features. First, the 
OIGs were required to evaluate the effectiveness of their 
agency's security program in the 10 designated FISMA areas for 
the first time, effectiveness meaning the extent to which 
security controls are implemented correctly, operate as 
intended, and produce the desired outcome.
    Second, the Council of the Inspectors General on Integrity 
and Efficiency in coordination with OMB and others rolled out 
the first phase of its new FISMA evaluation metrics called the 
maturity model, which summarizes the status of information 
security programs and their maturity on a five-level scale with 
five being the best. The first phase encompasses the FISMA 
security area of continuous monitoring management.
    Our 2015 FISMA audit found the Department was at level 1 
for continuous monitoring management and was not generally 
effective in three additional areas: configuration management, 
incident response and reporting, and remote access management.
    Notably, our penetration testing this year revealed a key 
weakness regarding the Department's ability to detect 
unauthorized activity inside its computer networks. We 
determined that three areas were in fact generally effective--
risk management, security training, and contingency planning--
although some improvements were needed.
    Finally, we found that two areas--plans of actions and 
milestones and identity access management--would be effective 
if implemented properly, although controls over access to FSA's 
mainframe environment need improvement.
    Although we did not make a separate conclusion on the 
effectiveness of the Department's program to oversee contractor 
systems, our review found an issue involving an FSA 
subcontractor who restricted OIG access to information, which 
left my office unable to complete a comprehensive vulnerability 
assessment to determine whether the subcontractor's other 
customers improperly accessed department data. This is 
particularly problematic because, based on the information the 
subcontractor did provide to us, we found accounts with 
excessive permissions and unauthorized access.
    The results of our FISMA and other work show that the 
Department and FSA must work harder to address existing 
weaknesses so they can be in a better position to identify and 
stop increasingly sophisticated attacks on critical IT 
infrastructures. My office is committed to helping them do so.
    Thank you very much. I'm happy to answer questions.
    [Prepared statement of Ms. Tighe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Chaffetz. Thank you.
    Dr. Harris, you are now recognized for 5 minutes.

                  STATEMENT OF DANNY A. HARRIS

    Mr. Harris. Thank you, Mr. Chairman.
    Chairman Chaffetz, Representative Connolly, and members of 
the committee, thank you for the opportunity to appear before 
you today.
    As the chief information officer for the Department of 
Education, I am committed to ensuring we have an effective 
cybersecurity program in place that includes strong controls 
and continuously monitors--we continuously monitor and evaluate 
our posture for opportunities to minimize risk and exposure as 
we work to improve our current systems and processes.
    While ED has made significant progress over the last 
several years in strengthening the overall cybersecurity 
program, we are not satisfied and we have solid plans to 
continue to increase the security of ED's systems. Before I 
dive into the specifics of our evolution, I wanted to provide 
brief organizational context that will assist our discussion 
today.
    ED is organized under one department-level CIO, a role that 
I have served in since 2008. The department-level CIO manages 
all core IT functions, including but not limited to IT 
operations, cybersecurity, enterprise architecture, and IT 
investment management.
    The Federal Student Aid, a performance-based organization, 
also appoints a separate CIO, which reports to FSA's chief 
operating officer. While the department-level CIO is ultimately 
accountable for the IT portfolio, FSA maintains independent 
operational responsibility for its IT portfolio. The FSA 
enterprise includes major mission systems that support student 
facing and public services. A few examples include the commonly 
known Free Application for Federal Student Aid, or FAFSA, and 
StudentAid.gov.
    During my more than 7 years as the Department's CIO, I've 
worked closely with leadership in FSA to ensure that IT 
management integrates with the Department's IT systems. Since 
fiscal year 2011 when the Department was noncompliant with all 
10 areas of FISMA, steady and consistent progress has been 
made.
    For example, the Department established a continuing 
monitoring program to assess the security state of information 
systems in the Department's two distinct environments, one 
called EDUCATE, which handles all of our infrastructure 
services, and the other, FSA's Virtual Data Center.
    OCIO and FSA adopted and implemented automated scanning and 
detection tools to collect, analyze, and report on security-
related risks, issues, and threats to the Department's systems. 
Other improvements include implementation of a network access 
control, or NAC, which provides device-level authentication and 
data loss prevention, or DLP, capabilities. This allows for 
control of data flowing in and out of our environment.
    Additionally, the OCIO moved from managed service provider 
to an in-house security operations center, or what we call a 
SOC, which allows for real-time threat detection and tracking. 
As a result, it has gained better situational awareness of its 
network environment and is able to respond more rapidly to 
network events.
    In July 2015 a two-factor authentication solution for 
accessing email remotely from personally owned computers and 
mobile devices replaced the previous user-name-and-password 
authentication method. The new method meets strong 
authentication mandates defined by OMB. We have reduced our 
FISMA noncompliance from 10 metric areas to 5 and have solid 
plans of resolving the remaining deficiencies.
    Most recently, the Department actively worked to address 
the focus areas of a cyber sprint by completing the review of 
identification of our high-value assets, completing the 
indicators of compromised network scan, mitigating critical 
vulnerabilities, and reviewing and appropriately restricting 
privileged user access. OCIO and FSA developed implementation 
plans to increase the issuance of personal identity 
verification or PIV cards to meet requirements of strong 
authentication. The OCIO completed its implementation this 
September, and FSA's completion is scheduled for this December.
    OIG's objective for the 2015 FISMA audit changed from a 
compliance-based auditing approach to a focus on general 
effectiveness of the Department's IT security program and 
practices. OIG found that while the Department has made 
progress in strengthening its information security program with 
5 of the 10 reporting metrics noted as generally 
effectiveness--effective, weaknesses were still noted in four 
of the five reporting metrics. Specifically, the IG determined 
it was not generally effective in the areas of continuous 
monitoring, configuration management, incident response and 
reporting, and remote access.
    In response, we are actively engaged in implementing 
solutions to address these areas. For example, to meet the 
requirements of OMB for implementing continuous monitoring by 
fiscal year 2007, the Department has developed an information 
security continuous monitoring implementation plan and is 
actively engaged with DHS to obtain continuous monitoring 
solutions as part of the task order 2 of the CDM program.
    Configuration management activities for fiscal year 2016 
include continuing the implementation of our NAC solution, to 
restrict access for users and devices, strengthen the 
Department's patch and vulnerability management program and 
prioritize and update policies and procedures to meet Federal 
configuration management requirements. For incident response 
and reporting, the Department is utilizing additional 
capabilities to identify and block attacks, for example, adding 
web application firewalls.
    And finally, to address weaknesses noted in remote access, 
the Department continues to consolidate and standardize the 
remote access solutions currently in use. This will allow for 
increased consistency in the implementation of controls across 
the remaining solutions. FSA continues their implementation of 
two-factor authentication requirements to include two-factor 
enablement on their remote connections.
    Thank you again for the opportunity to testify today and 
provide you with specifics of our plans. I will be pleased to 
answer any questions you may have.
    [Prepared statement of Mr. Harris follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
        
    Chairman Chaffetz. Thank you. I appreciate that.
    I will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the panel 
for being here.
    Mr. Harris, I appreciate your testimony and the information 
you have given. As has been mentioned, DMCS supports back-end 
loan collection work for borrowers. As CIO rated DMCS as higher 
risk on the Federal IT Dashboard since at least September 12, 
2013, due to contracting problems so severe, a cure notice was 
even issued. What do you consider when rating the risk of 
investments on the dashboard? Review that for us.
    Mr. Harris. Thank you for the question. Thank you for the 
question.
    There are a number of factors that I specifically look at 
as the CIO to rate an investment. A lot of it has to do with 
the project management of that investment. In other words, are 
you meeting deadlines on deliverables? A lot of it has to do 
simply with the size of the investment. More times than not, an 
investment can be managed properly, but given the size of it, 
we still consider it high-risk. In a lot of instances we look 
at the kinds of data that that system actually maintains. And 
so not in all instances will you see an investment that is 
doing well that still won't be perceived as a high risk.
    Mr. Walberg. Based on that, can you then explain why the 
risk rating went from yellow to dark red in May of 2014, a 
rating that changed shortly after the House Education and 
Workforce Committee held a hearing on the problems with DMCS, 
and why has the rating stayed red through May 2015?
    Mr. Harris. Representative Walberg, I don't have that 
information in my head right now, but that's certainly 
information I'd love to provide you.
    Mr. Walberg. It would be great if you could. Any time frame 
that you could get that to us?
    Mr. Harris. Certainly within the week, sir.
    Mr. Walberg. Okay. I appreciate that.
    On June 30, 2015, DMCS was re-categorized as low risk. Is 
your testimony today here under oath that these contracting 
issues are fully addressed?
    Mr. Harris. Again, Representative Walberg, I'd have to look 
at the details of that, and I will get that to you within the 
week as well.
    Mr. Walberg. Okay. Pretty significant details. We would 
appreciate that information.
    Inspector General Tighe, are you confident that all the 
problems are fixed and contracting with DMCS is okay based on 
your work?
    Ms. Tighe. Based on our work, no, I can't say with 
confidence that everything in DMCS2 is fixed. I mean the 
contractor Maximus, who is currently operating DMCS2, had a 
number of problems it needed to fix when it--the contract began 
a year or so ago. I don't think we can say at this point. We 
have not audited specifically what Maximus has achieved, but I 
would find it hard to believe that all the fixes are completed.
    Mr. Walberg. Have you looked at some of the objectives and 
parameters that they are using, and is there any confidence 
that flows from that?
    Ms. Tighe. We have not audited the dashboard specifically 
and what goes into it and whether the analysis related to 
DMCS2, as put on the dashboard, is correct or not. We've done a 
number of reports related to DMCS2 dating back a few years. As 
you probably know, it was a material weakness in the financial 
statement a few years ago. It's gradually--they've tackled the 
problems and are able to make DMCS2 functional, at least with 
workarounds, but I--manual workarounds, but I think the new 
contractor is supposed to be working on making it fully 
functional.
    Mr. Walberg. Okay. Thank you. Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman. I now recognize 
the gentleman from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. I thank the chair.
    Dr. Harris, I have got to say to you it is not confidence-
building that you were asked questions by Mr. Walberg involving 
reports that, you know, going from yellow to red now in a high-
risk category, and your answer is I have got to get back to 
you, seemingly unaware of these reports. Is that your 
testimony? You were not aware of these reports? This is news to 
you?
    Mr. Harris. No, Representative Connolly. It's not news to 
me. There are--there's a large number of investments that I 
review. I want to make sure that I provide you accurate 
information.
    Mr. Connolly. Well, it just seems to me if we are going to 
have a hearing on this subject and you are the CIO, why not be 
better prepared frankly coming before this committee to be able 
to answer questions that certainly you could have, should have 
anticipated.
    So in that same pleasant vein, can you address the fact 
that you got the lowest grade possible in the FITARA scorecard? 
Understanding it is a work in progress and the intent here is 
not to put a scarlet letter on one's back, but you really got 
failing grades in all but one category, and that was a ``D''. I 
wouldn't have gotten into graduate school with that kind of 
scorecard. Please address it.
    Mr. Harris. Absolutely, sir. I respectfully disagree with 
the rating. First of all, I am not aware of the source of that 
information, but what I can tell you, sir, is that we have a 
solid plan in place, implementation plan in place for FITARA by 
this December, and, quite frankly, in multiple meetings with 
OMB they made it very clear to us that our plan was very solid. 
In fact, many of the requirements of FITARA have already been 
satisfied by the Department for many, many years. With the 
exception of FSA, currently all IT operations come through the 
CIO, specifically spending, for example.
    And so I do disagree, respectfully disagree with that 
report, and I don't know--I haven't found the source of that 
information yet. But I think we're very solid on FITARA.
    Mr. Connolly. Well, I go back to my opening statement. It 
is not a confidence-building measure to have the CIO saying he 
disagrees with the findings, and you think you are solid with 
FITARA when you got an ``F''. What do you think you should have 
gotten? The highest grade was a ``B'' and only two agencies got 
that.
    Mr. Harris. I actually think we should have gotten a ``C'', 
sir, if I can give you an example of what I mean.
    Mr. Connolly. Sure.
    Mr. Harris. So take the first measure, for example, when 
you look at data center consolidation. The Department 
currently, to be real honest with you, we don't own any data 
centers but our contractors do. But that's beside the point. We 
still report. We have three data centers, three data centers. 
And in fact, we will be reducing that to two in fiscal year 
2016.
    And so it startles me that I see an ``F'' in data centers 
when we actually are probably the smallest in the Federal 
space. And given the amount of data processing we do, I think 
that's astounding.
    Mr. Connolly. I will work with you on that because that 
happens to be one of my bugaboos. And the Federal Government, 
as you know, in our last hearing to my surprise we discovered 
2,000 more data centers. So the fact that we have a Federal 
agency testifying they only have three is music to our ears and 
I will be glad to work with you, Dr. Harris, as I know this 
committee will, in trying to clarify that ----
    Mr. Harris. Thank you.
    Mr. Connolly.--if that is the case. But let me just say 
this. I exhort you to do what you can not only in clarifying 
that grade, but more importantly, the spirit of this is 
improvement because the object here is to make sure that we 
don't have the kind of data breach we had at OPM at the 
Department of Education. And you have a sacred trust in 
protecting the data of 50 million Americans or more in your 
care, and, you know, you want to be making the headline that 
actually your data breach is twice that of, you know, some 
other agency. And, I mean, that is not your only goal. We want 
to see you be more efficient. We want you to see IT as a 
resource and a transformative process.
    Why are there, Dr. Harris, repeat recommendations coming 
out of OIG that haven't been acted on by your office or by the 
Secretary?
    Mr. Harris. I concur with the IG, as well as the committee, 
that repeat findings are always troublesome. There are two 
reasons why we continue to have some repeat findings.
    The first reason is the resolution to some of the findings 
are quite complex, and they require multiple years to actually 
resolve. An example, our implementation of our NAC and DLP for 
the talent that we have, we've spent multiple years 
implementing NAC and DLP. And in fact, we will finish our 
implementation this year. But it has taken multiple years to 
implement those very complex systems. And with the full 
implementation this fiscal year, we will actually resolve 90 
percent of the repeat findings.
    Mr. Connolly. And, Ms. Tighe, you would corroborate that?
    Ms. Tighe. We would corroborate that ----
    Mr. Connolly. I can't hear you.
    Ms. Tighe. Yes, it has been--we have observed that the NAC 
solution has taken a long time to fully implement, and it does 
impact some of our repeat findings.
    Mr. Connolly. But you agree with Dr. Harris's statement 
that by I think you said the end of the year about 90 percent 
of that will be addressed?
    Ms. Tighe. I don't know if I can agree with that. I mean we 
haven't audited that conclusion specifically. We'll find out 
when we go in next year's FISMA audit.
    Mr. Connolly. Okay. Thank you. My time is up.
    Chairman Chaffetz. Will the gentleman yield?
    Mr. Connolly. Gladly.
    Chairman Chaffetz. I want to help clarify this database 
center issue. You have, best I can tell, 184 information 
systems, correct?
    Mr. Harris. That's correct, sir.
    Chairman Chaffetz. And you have 120 contractors that house 
that information, correct?
    Mr. Harris. That is correct, sir.
    Chairman Chaffetz. So how many data centers do you have?
    Mr. Harris. We have three data centers that the Department 
of Education maintains. We have--Federal Student Aid has ----
    Chairman Chaffetz. How many data centers are there housing 
this information that you are responsible for?
    Mr. Harris. I don't know, Mr. Chairman.
    Chairman Chaffetz. Well, there you go. There is the 
problem. The answer is not three. You are at least 123, and you 
don't know? Is a contractor not a database to you?
    Mr. Harris. I'm sorry. Ask the question again, sir.
    Chairman Chaffetz. If a contractor is housing the 
information, is that not a database?
    Mr. Harris. We do not count that as a data center, sir.
    Chairman Chaffetz. Why not?
    Mr. Harris. Based on OMB's guidance on how we count data 
centers, we don't count that. It--we get that as a service and 
so we don't count it as a data center.
    Chairman Chaffetz. So you just contract that out; you leave 
it alone? The inspector general can't look at it. You don't 
even consider one of your databases?
    Mr. Harris. We don't, sir.
    Mr. Connolly. So ----
    Chairman Chaffetz. There is the problem, Mr. Connolly.
    Mr. Connolly.--Mr. Chairman, could I just ----
    Chairman Chaffetz. Sure. Go ahead.
    Mr. Connolly. So your philosophy is that a data is 
compromised through a contractor, that is their problem, not 
your problem?
    Mr. Harris. That is not correct.
    Mr. Connolly. Well, you can't have it both ways. Either you 
take responsibility for a data center irrespective of where it 
is located or you don't. It is under your charge. That is the 
point I think the chairman is making.
    Chairman Chaffetz. You are paying for it. We are paying for 
it. Taxpayers are paying for it.
    Mr. Connolly. I mean, fair enough, you don't count it. This 
isn't a bureaucratic, you know, checklist process. What we are 
concerned about it efficiency, reliability, and security, and 
if you have got hundreds or thousands of data centers under the 
care of contractors, okay, OMB may not count that as 
technically a Department of Education data center, but it is 
still in your charge. And our concern here isn't to consolidate 
for the sake of consolidation so we feel better. It is because 
we believe it is inefficient to have a multiplicity of data 
centers. In fact, we know it is. And we need cooperation from 
every agency, irrespective of where they are located.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. And as a concluding point, I hope we 
could jointly ask that the GAO look at this issue of data 
centers at the Department of Education.
    Mr. Wilshusen. I would happy to work with your staff to do 
that.
    Chairman Chaffetz. Thank you.
    I now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And I thank the 
ranking member for his insightful questions as it relates to 
these data centers. I have worked with him in a very close way, 
in a bipartisan way, and so I find it just very interesting 
that your testimony here this morning would be that you have 
three data centers when the GAO would not agree with that. So 
you are disagreeing with the GAO on their definition, is that 
correct?
    Mr. Harris. If GAO is suggesting that we have more--the 
Department has more than three data centers, yes, sir, I am 
disagreeing.
    Mr. Meadows. All right. So here is my concern, Dr. Harris. 
You know, the headline should read Department of Education Gets 
an ``F''. Now, that is not good when we are talking about 
education, but what is even more troubling is the definition of 
a data center has been made very clear to me, and I am not a 
CIO. GAO has been very clear on what they view a data center to 
be, and under your definition, under your definition, everybody 
could get rid of every single data center by subcontracting out 
the service. Do you follow the logic there?
    Mr. Harris. I do, sir.
    Mr. Meadows. So are you suggesting that you will go to zero 
and get an ``A'' on that dashboard just by subcontracting all 
your data centers out to someone else?
    Mr. Harris. No, sir, I do not.
    Mr. Meadows. Okay. Well, then explain the disconnect to me. 
Why is your testimony three if indeed you are subcontracting 
out those services?
    Mr. Harris. So when OMB does a data call and they give us 
guidance for how we report ----
    Mr. Meadows. I am talking about GAO ----
    Mr. Harris. I'm sorry.
    Mr. Meadows.--all right, the dashboard. They are going to 
be the ones that help define this with FITARA and everything 
else, and we're going to have you back in here on a hearing. So 
with their definition, how do you think you can consolidate 
some of those data centers that are subcontracted right now? So 
do you have 120 subcontracted data centers?
    Mr. Harris. Sir, the only way to consolidate those is to 
actually consolidate contracts.
    Mr. Meadows. Exactly. Thank you, Dr. Harris. And so are you 
going to consolidate contracts?
    Mr. Harris. We're certainly willing to take a look at that.
    Mr. Meadows. Okay. Would I suggest that you do that, 
because if not, you are going to continue to get an ``F'' when 
it comes to data consolidation. The risk is spread across 120 
subcontractors. Would you agree with that?
    Mr. Harris. Yes, sir.
    Mr. Meadows. Okay. And, Ms. Tighe, were you able to 
infiltrate their system? I noticed the notes from the fiscal 
year 2015 indicated that you were able to penetrate the EDUCATE 
system. Were you able to do that?
    Ms. Tighe. Yes. During our penetration testing for our--the 
FISMA audit this year, we were able to gain access--full access 
to the EDUCATE system, which is the general support system that 
houses a number of the Department's systems, undetected by 
either the contractor for EDUCATE--Dell--or the CIO's office.
    Mr. Meadows. So you are saying Dr. Harris didn't know that 
you were there?
    Ms. Tighe. Correct.
    Mr. Meadows. So, Dr. Harris, how do you explain--I mean are 
you willing to stake your reputation and your job on the fact 
that the system is secure?
    Mr. Harris. I am today, sir, with full ----
    Mr. Meadows. So if there is a breach from this point 
forward, you are willing to resign?
    Mr. Harris. No, sir, I did not say that.
    Mr. Meadows. Okay. Well, I said your reputation and your 
job.
    Mr. Harris. I certainly will stake my reputation, given 
where we are today. Our full implementation of NAC and DLP, for 
example ----
    Mr. Meadows. So how confident on a scale of 1 to 10 with 10 
being the highest are you that we will not have some kind of a 
breach? Ms. Tighe was able to get in. I have got hackers I 
could probably hire to get in there today. Wouldn't you agree 
with that?
    Mr. Harris. As of today, sir, I would rank it a 7.
    Mr. Meadows. A 7?
    Mr. Harris. Yes.
    Mr. Meadows. So when ----
    Mr. Harris. We're making great progress but I would rank it 
a 7.
    Mr. Meadows. Okay. Now, is this a 7 on the same scale that 
you just gave yourself a ``C'' where FITARA gave you--the 
dashboard gave you an ``F''?
    Mr. Harris. That is correct, sir.
    Mr. Meadows. All right. So this is the grading according to 
Dr. Harris?
    Mr. Harris. I just believe we've made a tremendous amount 
of progress ----
    Mr. Meadows. Okay. So what do we tell the 125 million 
people that have their personal identification numbers 
potentially at risk when you say that it was a 7, you have 
staked your reputation on it, and yet we have a breach like we 
had at OPM? Are you confident that we are not going to have 
that?
    Mr. Harris. I have strong confidence, sir, and may I tell 
you why? Even prior to the cyber sprint where two-factor 
authentication required level of assurance 4, long before that, 
we had two-factor authentication at LOA 3, not as strong as 4 
but ----
    Mr. Meadows. But on two-factor authentication, you went 
down--it has already been testified you went down. You went the 
opposite way on our 30-day testing period on, you know, the 
two-person authentication. So you may have had it but you 
weren't using it.
    Mr. Harris. Might I explain?
    Mr. Meadows. Sure.
    Mr. Harris. Interestingly enough, two things happened 
during the cyber sprint. The definition of privileged users 
changed, and the LOA, the level of assurance, changed. Take a 
look at the privileged users. The definition went from a 
technical, hardcore access to technical information to anyone 
who had access to PII. As a result of that, we voluntarily 
changed our number to significantly increase the number of 
privileged users that we were reporting, which dropped our 
percentage.
    Mr. Meadows. All right. I appreciate the chair's 
indulgence. Thank you for your answer. I will yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from New York, Mrs. 
Maloney, 5 minutes.
    Mrs. Maloney. Mr. Chairman, thank you.
    There have been a number of significant data breaches over 
the past year that have jeopardized the personal and financial 
information of millions of Americans. Anthem, Premera Blue 
Cross, the Office of Personnel Management, and most recently, 
Experian all suffered breaches in which hackers were able to 
steal the personal information of millions of individuals.
    Mr. Harris, we are not here today talking about that kind 
of massive data breach that has actually happened at the 
Department of Education, correct?
    Mr. Harris. That is correct.
    Mrs. Maloney. Okay. The Department of Education systems do 
contain large volumes of sensitive information, however, 
including personnel records, financial information on students 
and borrowers that would be attractive to cyber thieves. 
Therefore, it is an important part of our oversight to ensure 
that these systems are adequately protected.
    Ms. Tighe, according to the 2015 audit your office issued 
last Friday, ``the Department and FSA made progress in 
strengthening its information security systems.'' What are the 
areas where you have seen the Department make the most 
progress?
    Ms. Tighe. Some of the areas include--they've done a good 
job on password controls for system users. They've done a 
better job--a much better job of--once incidents are found, of 
reporting them up through US-CERT and addressing those issues. 
And another area, because we noted in our fiscal year 2014 
report, our last year's FISMA report, that there were problems 
in CIO's office with the fact that they would say they've 
implemented corrective action, but we would go in the next year 
and continue to find the same problem even though they said 
that they did it. They've now implemented a much better process 
for dealing with corrective action, and so we've been very 
pleased to see them actually resolve some issues.
    Mrs. Maloney. Okay. And in your 2015 audit you did identify 
several weaknesses in the Department's information security 
system. With respect to those weaknesses, your report states, 
``we found that the Department was not generally effective in 
four security areas: continuous monitoring, configuration 
management, incident response and reporting, and remote access 
management.''
    Mr. Harris, as the Department's CIO, do you agree with the 
IG's assessment that the Department needs improvement in the 
four security areas I just read?
    Mr. Harris. Yes, Representative Maloney, I do concur.
    Mrs. Maloney. Okay. Are there any areas in which you 
disagree with the IG's assessment about the Department's 
weaknesses in IT security, and if so, what are they?
    Mr. Harris. No, Representative Maloney, I do not.
    Mrs. Maloney. You do not. Okay. In addition to reporting on 
weaknesses the IG found in the Department's IT security, the 
report makes 26 recommendations for improving the effectiveness 
of the information security programs. Mr. Harris, do you have a 
timeline for implementing the IG's recommendations?
    Mr. Harris. Our plan is to resolve all of those 
recommendations in fiscal year 2016.
    Mrs. Maloney. And when will you have all the 
recommendations implemented, all of them by the end of 2016?
    Mr. Harris. That is correct.
    Mrs. Maloney. Okay. Do you have all the tools you need to 
make the improvements the IG recommended?
    Mr. Harris. It is a very, very aggressive plan and 
strategy, but that is surely our intent. If we have to move 
resources from one place to another, it is certainly our intent 
to do so.
    Mrs. Maloney. Well, I want to thank you. Given the large 
amounts of sensitive and confidential information the 
Department retains, it is imperative that it move as quickly as 
possible to correct the weaknesses the IG has reported in her 
report.
    Okay. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    The inspector general found that the Department's remote 
access management program was not generally effective because 
it did not enforce its network timeout requirement or, more 
significantly, use the two-factor authentication for two of its 
network connections.
    The failure of the Department to enforce the two-factor 
authentication requirement for remote access users opens it up 
to the same style of cyber attacks that were used against OPM.
    Ms. Tighe, let me start with you if I could please. Can you 
elaborate on how the Department's failure to enforce timeout 
requirements in the two-factor process for this remote access 
opens up the Department of Education to the same attacks 
potentially that we saw used against the OPM?
    Ms. Tighe. Well, yes. The problem that we identified this 
year, we had gone out and asked for the inventory--and this was 
to the Federal Student Aid organization--what your inventory of 
remote access devices. They identified four. We did penetration 
testing, found two more that they didn't even know about, and 
those two did not have two-factor authentication.
    So they have now, we understand--have put two-factor 
authentication on those two additional remote access points, 
but we still have, I believe a couple of outstanding 
recommendations related to remote access. And if you do not 
have proper controls obviously on remote access, then you do 
open up the Department to attacks from the outside.
    Mr. Walker. Sure. And I am sure you guys are taking the 
precaution, you are looking at these two adjustments, 
modifications, or things that we can include to prevent maybe 
some more of the cyber attacks. Is that fair to say?
    Ms. Tighe. Yes.
    Mr. Walker. Okay. Dr. Harris, what is the Department of 
Education--what are your actions and doing to solve this 
problem? Are you guys doing anything specific to making sure--
you know, if I remember correctly, the OPM Director Archuleta 
ended up having to resign because the breach was so intensive. 
We don't want the same kind of thing here in the Department of 
Education. Can you tell me what actions, steps you guys are 
taking?
    Mr. Harris. Absolutely, Representative Walker.
    So for the two incidents you just mentioned, I concur with 
the IG. We have since resolved both of those. The incident not 
passing the buck, I don't have operational responsibility for, 
but at the end of the day I am accountable and responsible for. 
And so we have made sure that we continue to harden our two-
factor authentication.
    And what's really critical is we are looking at least 
privileged. It's not just a matter of managing your privileged 
users but making sure they have the minimum privileges that 
they need. So we're doing both of those.
    Mr. Walker. Would you mind dialing it down just a little 
bit more specific? When you say you are doing both of those, is 
there a specific date of implementation? Or how exactly are you 
doing these things to make sure that it is safer?
    Mr. Harris. Yes. On the education side we've already 
completed 100 percent two-factor authentication, LOA 4, the 
strongest. And on the FSA side of the house, the--their 
completion date is December of this year.
    Mr. Walker. Okay. Thank you for your answers.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Georgia, Mr. Hice, 
for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. And thank each of you 
for being here and testifying.
    I would like to begin, Ms. Tighe, with you. According to 
the 2015 audit, as has already been brought up a couple of 
times here this morning, there were six repeat findings and 10 
repeat recommendations. That, of course, I think, raises a red 
flag for a lot of people as to why these things are not being 
addressed. So from your perspective, what is the issue? Is it 
an inability--are they unable to take care of these issues, or 
is it a matter more of an unwillingness to do so?
    Ms. Tighe. Well, I think there's a lot going on here. 
There's no one particular reason. I mean some is, as Dr. Harris 
testified, the fact that sometimes solutions are--can't happen 
short term. They are sometimes long term. Sometimes we raise 
issues on particular systems, and they may achieve a solution 
to that particular problem, but what they don't then do is say, 
hey, maybe we have the same problem on other systems. So we go 
back in the next year because we kind of rotate through our 
work looking at different systems because we can't look at 184 
every year, right, so--and sometimes we get to the next year 
and we see the same problem we identified on this system on 
another system, which is what, you know, gets frustrating for 
us.
    Mr. Hice. So you would put the blame on this systems rather 
than ----
    Ms. Tighe. Well ----
    Mr. Hice.--an inability or an unwillingness to address the 
----
    Ms. Tighe. Well, I think there needs to be a couple of 
things. I think attention needs to be paid to our 
recommendations and priority given to them. I think sometimes 
long-term solutions can seem to happen--be longer than maybe 
they need to be. And also I think that when we make a 
recommendation pertaining to one system, it would be good to 
step back and think--for the Department to step back and think, 
hey, is this same problem happening on other systems.
    Mr. Hice. Okay. Thank you.
    Dr. Harris, it appears to me that we're utilizing outdated 
technology, and I think you have acknowledged that as well. In 
fact, it appears from what I've read there's 962 operating 
systems that are no longer supported by vendors. That's 
inexcusable. The vulnerabilities can't even be spoken of. I 
mean we can't even fathom the kind of vulnerabilities when 
you're utilizing technology that's not even supported any 
longer, and yet you said you feel you'd give yourself a 7 out 
of 10 that we're currently--how in the world can you give 
yourself a 7 out of 10 when we're using technology that's not 
even supported?
    Mr. Harris. Representative Hice, I would concur with you 
that it is kind of ridiculous that we're using this old 
technology. The 7 that I give us is the remediation that we 
have in place and the tools we have to actually protect those 
outdated systems while we work hard to catch up. So on the one 
hand you're absolutely right. There are vulnerabilities on that 
side, but the remediation is on the side of the tools that we 
have in place as we modernize.
    Mr. Hice. Why is the Department using that old technology?
    Mr. Harris. A lot of it has ----
    Mr. Hice. Why doesn't it catch up with the times?
    Mr. Harris. Sorry, sir. A lot of it has to do with the 
system owners and the applications--application owner's ability 
to keep up with the operating system. In some cases, you have 
to make a decision do you shut down a mission-critical 
application that provides services to the public, or do you 
mitigate the risk? And more times than not we mitigate the risk 
while we're trying to modernize.
    Mr. Hice. All right. So how long is it going to take to 
modernize?
    Mr. Harris. I don't have an answer to that, sir, across the 
entire platform, but I can tell you that we are working hard to 
do that modernization.
    Mr. Hice. All right. So we are going to continue to have 
vulnerabilities for an indefinite period of time?
    Mr. Harris. I think we will, sir. And I think what we have 
to do is work hard to make sure that we have tools in place 
that mitigates that risk.
    Mr. Hice. Okay. ``Work hard'' sounds fine, Dr. Harris, but 
what does that mean? When can we expect the system to be 
secure? We have tens of millions of people whose lives and 
personal information is at a potential high risk as it relates 
to vulnerability, and your answer is we are going to work hard. 
When is the vulnerability going to be removed?
    Mr. Harris. And, Representative Hice, I would say that we 
are reasonably secure now. I'm not suggesting that we're not 
secure, but we do need to strengthen. That's very important. 
I'm not going to suggest that we don't have a tremendous amount 
of work to do. But I want--don't want the general public to 
think that we are not secure.
    Mr. Hice. There again, ``reasonably'' is not a very secure 
answer. We have got a lot of people whose lives and personal 
information is potentially hanging in the balance. And this is 
an issue, Mr. Chairman, that hits every district in this 
country. And my time is expired but I thank the chairman for 
this and I yield back.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize the gentlewoman from Illinois, Ms. Kelly, for 5 
minutes.
    Ms. Kelly. Thank you, Mr. Chairman.
    Ms. Tighe, your office identified key weaknesses in the 
ability of the Department and its contractor Dell to detect and 
prevent unauthorized access. Can you tell us what your testers 
were able to do during the vulnerability assessment testing of 
some of the Department's IT environments?
    Ms. Tighe. Yes. We were able to--during the penetration 
testing, we were able to gain access--or full access to the 
complete EDUCATE environment. And EDUCATE, you have to 
understand, is a--sort of a general support system that houses 
a number of the Department's systems. So we were able to 
completely access that and went undetected by either the 
Department's contractor or the Department.
    Ms. Kelly. Thank you. The FISMA audit report explains that 
the Department's defenses did not detect or terminate the 
unauthorized access and remained on the network for hours. What 
kind of risks are the Department's systems exposed to by these 
weaknesses in detection and prevention of unauthorized access?
    Ms. Tighe. Well, I think the risks would certainly be 
access to the Department's data. We could have really done 
anything in there. So the fact that we were able to gain access 
means that outsiders who have bad intentions are able also to 
come back through the same way we did and gain access. And that 
really puts the Department systems and data and employees and 
everybody who deals with--is involved in our system is at risk.
    Ms. Kelly. All right. Mr. Wilshusen, do you know whether 
this kind of undetected, unauthorized access is characteristic 
of some of the major data breaches that have occurred in the 
public and private sectors?
    Mr. Wilshusen. Yes, I think it is actually. Indeed, just 
for example like with the OPM breach, that occurred for a 
number of months before it was actually detected. And so I 
think that's often one of the hallmarks of these very 
successful attacks is that they do go undetected. They exploit 
known vulnerabilities and systems and then go undetected.
    Ms. Kelly. The OIG recommended that the Department ensures 
its intrusion detection and prevention system and technical 
security architecture are property configured to restrict and 
eliminate unauthorized access. Mr. Harris, the Department 
concurs with this recommendation, correct?
    Mr. Harris. Yes, we do.
    Ms. Kelly. What is the status of the Department's plan, 
corrective actions, and when do you expect them to be 
completed?
    Mr. Harris. So I'm pleased to announce that, with the 
implementation of our--a NAC system, it allows us to do three 
things. It allows us to look at all--look and touch all of our 
assets, it allows us to see the configuration on those assets, 
and it allows us to manage the vulnerability on those assets. 
Fiscal year 2016 we plan for a full implementation. It is in 
place now and we can monitor. The full implementation will 
allow us to actually block anonymous behavior.
    Ms. Kelly. Is this fiscal year 2016 January or March? 
Around when in fiscal year 2016?
    Mr. Harris. The third quarter is what we're looking at.
    Ms. Kelly. Okay. Thank you. Ms. Tighe, you said in your 
testimony that the Department was effecting in ensuring proper 
incident response and reporting once incidents were reported. 
Can you describe what steps the Department has taken to ensure 
it effectively responds to incidents?
    Ms. Tighe. Yes, they have--and I would defer to Dr. Harris 
on this if he has more to add--but I know that they have a SOC, 
a security operation center, up and running, and that's given 
them capabilities they never had before in terms of incident 
reporting and response.
    Ms. Kelly. Dr. Harris, did you want to add anything?
    Mr. Harris. Yes, I would. We have an incident response 
process that follows both OMB and NIST guidelines, and we also 
have a very strong and well-documented PIRT process, basically 
a privacy incidence response team that goes into action when we 
have breaches.
    Ms. Kelly. Okay. And you discussed in your testimony the 
role of the Department of Homeland Security has in helping the 
Department identify risks. Can you expand upon that? How do 
those programs help supplement your efforts?
    Mr. Harris. Sure. I talk about it in very--I'm very 
enthusiastic about the progress the Department has made over 
the last 3 years. A lot of it has to do with the shared 
services that DHS provides to us, specifically with CDM task 
order 2 where we will expand our sensors, we will also lower 
the cost of licensing, and more than anything else, we will 
have access to dashboards that actually allow us in real time 
to look at vulnerabilities. That's what we're missing right 
now.
    Ms. Kelly. Okay. Well, thank you, and I look forward to 
seeing further progress from all agencies in detecting and 
responding to incidents. Thank you, and I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    I will now recognize the chairman of the Subcommittee on IT 
for our Oversight and Government Reform Committee, the 
gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    I want to start off with a simple question, and this is to 
you, Ms. Tighe. When you conduct your penetration testing or 
technical vulnerability assessment, who decides when that 
happens? Can the Department come and say, listen, this is a 
tool we would like to use? Can you do this? Or is this 
something that you do independently?
    Ms. Tighe. We do it independently.
    Mr. Hurd. And is that the same across most agencies?
    Ms. Tighe. I think that's the same with most IGs who do 
penetration testing. I'm not sure everybody does.
    Mr. Hurd. And how often do you plan on doing penetration 
testing?
    Ms. Tighe. We do it every year as part of our FISMA audit.
    Mr. Hurd. Okay. Because that is an industry best practice, 
and it is a good thing that this is going on. The information 
you glean is important for Dr. Harris and his team.
    Dr. Harris, the remaining of my questions are for you. And 
I am going to read your statements. And I usually like to dig 
into the weeds at these hearings, but there is a lot of big-
rock strategic issues that have come out here today. In your 
testimony you say ``the department-level CIO''--that is you--
``manages all core IT functions, including but not limited to 
IT operations, cybersecurity, enterprise architecture, and IT 
investment management.'' You further add that ``the Office of 
Federal Student Aid (FSA) appoints a separate CIO.''
    Now, you are saying that you are responsible for all IT 
department activities but you don't have control over all the 
activities within the Department of Education. Would that be a 
true statement?
    Mr. Harris. That is correct, Representative Hurd.
    Mr. Hurd. Does that make sense?
    Mr. Harris. I believe that FITARA will strengthen my 
ability and authority to actually provide more guidance and 
oversight, and if you want to use the word control over 
operations. Right now, that is a challenge.
    Mr. Hurd. So there are two people missing here today to be 
frank. Number one is the agency head, right? And I know Arne 
Duncan has announced his retirement and John King will be 
taking over as acting duties and I think through the rest of 
this administration because ultimately, the buck stops there. 
But we are also missing the CIO of FSA participating in this 
conversation because it doesn't make any sense.
    And we go back to the issue of data centers. Department of 
Education is ultimately responsible for all the data centers 
that hold information for these kids that are applying for 
Federal aid. So saying that we have three is being 
disingenuous, right? And my question is, you know, when we have 
these issues, who is remediating these vulnerabilities, 
especially when it comes to FSA? Are you responsible for it? Is 
the CIO of FSA responsible for it? Who is ultimately supposed 
to be held accountable for these issues?
    And you talk about NAC's implementation. Is this going to 
include all the subcontractors or is this just Department of 
Education employees that have that on their badge, not 
necessarily all the subcontractors that work for you?
    Mr. Harris. Currently, it's just the Department of 
Education, the latter.
    Mr. Hurd. Does that make sense?
    Mr. Harris. No, sir, it does not.
    Mr. Hurd. So IG reports show that since 2011 there was no 
mechanism to restrict the use of unauthorized devices on the 
network. Having the ability to find devices on your network, 
does it really take 4 years to figure that out?
    Mr. Harris. With the talent we had, sir, it took us that 
long ----
    Mr. Hurd. So you are saying ----
    Mr. Harris.--and in the last 3 years we've made a 
tremendous amount of progress.
    Mr. Hurd. Well, that is not very encouraging. I am hoping 
we have increased the talent in order to do that because, Ms. 
Tighe, would you have any opinions on how long it would take to 
implement one of these systems?
    Ms. Tighe. Well, I would hope it would be done sooner but 
----
    Mr. Hurd. Well, I know ----
    Ms. Tighe.--I--you know, but I would point out that this 
year's report also highlighted this again as an issue. So to 
the extent that ----
    Mr. Hurd. Great. So, Mr. Harris, how many users do you have 
in the Department of Education?
    Mr. Harris. Approximately 6,000, sir.
    Mr. Hurd. Okay. And does that include subcontractors?
    Mr. Harris. That is correct, sir.
    Mr. Hurd. So 6,000, just 6,000?
    Mr. Harris. Yes, sir.
    Mr. Hurd. Six thousand is not a lot. All right. And I would 
hope you would share with your CIOs and agency heads--
generally, when I ask questions at these hearings, I know the 
answer because I used to do this for a living, right? And to 
implement controls on 6,000 users should not take 4 years. I 
literally thought you were going to say 60,000 or 600,000 
users, right? This is completely unacceptable. So who are some 
of the vendors--so there are 120 contractors? Is that right, 
Chairman? Or do you know the answer? How many other 
subcontractors do you have?
    Mr. Harris. Now, the 6,000 includes just the individuals 
using the Department's data centers. It does not include the 
users or the subcontracts outside of the VDC and the ----
    Mr. Hurd. So why are these subcontractors not under your 
purview in your responsibility, in your operational control?
    Mr. Harris. Well, because, for the most part, FSA has 
contractual arrangements with them. They don't operate their 
data centers.
    Mr. Hurd. So why does FSA not--so does Arne Duncan have 
control over FSA? Does Arne Duncan tell FSA do this and FSA 
does that?
    Mr. Harris. I can't answer that, sir. I'd like to get back 
to you ----
    Mr. Hurd. So the CIO of FSA, can you tell that person what 
to do?
    Mr. Harris. I cannot, sir. That person reports to the COO 
of FSA. I provide ----
    Mr. Hurd. And who does ----
    Mr. Harris.--direction and guidance.
    Mr. Hurd. And do you know who the COO of FSA reports to?
    Mr. Harris. Yes, the Secretary.
    Mr. Hurd. Interesting. I don't even know where to continue. 
I see my time has expired. But this is the kind of issue that 
the American people are completely frustrated with. You know, 
this is not a bureaucratic exercise, as my friend from Virginia 
pointed out. And saying that Department of Education has a 
certain level--but you are responsible for all these others, 
and if you don't have the authority or the power to do that, 
then you know what, we are here to give you that authority 
because we want to hold you accountable. But we want to make 
sure you have all the tools at your disposal to do these 
things. But it is unacceptable to say 6,000 people. I could 
probably do that over the weekend. This is completely 
unacceptable. And I look forward to the hearing tomorrow.
    I am sorry, Mr. Chairman, for going over my time. I yield 
back.
    Chairman Chaffetz. Thank you. I now recognize myself. To 
the gentleman from Texas, I would say that I believe we have 
just in the National Student Loan database 97,000 accounts, 
97,000, a little higher than the 6,000. I think you have struck 
the heart of what is the problem because--one of the problems.
    Under the E-Government Act of 2002 and certainly under 
FITARA, you are supposed to not only have the responsibility 
but the authority, and I think the gentleman is right. 
Secretary Duncan needs to answer this.
    And my question, how often do you meet with Secretary 
Duncan?
    Mr. Harris. On a monthly basis, sir, and ----
    Chairman Chaffetz. So ----
    Mr. Harris.--I meet with the deputy secretary weekly.
    Chairman Chaffetz. So to the gentleman from Texas, I would 
suggest here they are managing more than $1 trillion in assets, 
liability for the United States. It is basically the size of 
Citibank, and the CIO meets with the Secretary maybe 12 times a 
year, right, once a month?
    Mr. Harris. That is correct, sir.
    Chairman Chaffetz. I mean that is absolutely stunning. And 
looking at the vulnerability of almost half of the population 
of the United States of America has their personal information 
sitting in this database, which is not secure by any standard, 
any scorecard. It is not secure. A trillion dollars, half of 
all America, and the Secretary of Education, once a month. How 
long do you meet with him for when you have it? When is the 
last meeting you had with him?
    Mr. Harris. About 3 weeks ago, sir.
    Chairman Chaffetz. How long did you meet with him?
    Mr. Harris. For an hour-and-a-half.
    Chairman Chaffetz. Yes. Is it a budget problem? What is 
your budget? How much money do you have?
    Mr. Harris. We spend approximately $550 million a year, and 
about $32 million of that is for IT security.
    Chairman Chaffetz. How much is for IT security?
    Mr. Harris. Thirty-two million.
    Chairman Chaffetz. But ----
    Mr. Harris. However, there's a large percentage of embedded 
costs for our contractors that would significantly increase 
that number ----
    Chairman Chaffetz. And we will have to work this out with 
you. My understanding is you spend $683 million on IT at the 
Department of Education, but do you need more money or do you 
have enough money?
    Mr. Harris. Certainly, we could always use more.
    Chairman Chaffetz. Everybody always says that.
    Mr. Harris. Sir ----
    Chairman Chaffetz. Everybody always says that, okay?
    Mr. Harris. Certainly.
    Chairman Chaffetz. So ----
    Mr. Harris. But I would say, sir, that ----
    Mr. Connolly. For God's sake ----
    Mr. Harris.--cybersecurity talent ----
    Mr. Connolly.--say yes, Dr. Harris.
    Mr. Harris. I would say that my biggest challenge is 
cybersecurity talent even more than money. If you told me to 
take a choice between the first or the second, I would say you 
can give me all the money in the world but if the Federal space 
can't obtain and retain the cyber talent, we are in big 
trouble.
    Chairman Chaffetz. No, I absolutely agree with you, and it 
is something I think this committee needs to look at is the pay 
authority to perhaps even pay the IT specialists more in such a 
critical vulnerable situation and the ability in the 
marketplace to actually attract and retain people. I would 
agree with you.
    Does the Department implement the Department of Homeland 
Security Continuous Diagnostic and Mitigation system, and do 
you have the EINSTEIN intrusion detection program thoroughly 
and completely integrated into all of your IT systems?
    Mr. Harris. We do, sir. In fact, the Department of 
Education was one of the first to implement EINSTEIN 1, 
EINSTEIN 2. We're now working with DHS to implement EINSTEIN 3. 
And, yes, we do participate in CDM task order 2 specifically.
    Chairman Chaffetz. Does that include the contractors and 
subcontractors or ----
    Mr. Harris. It includes those that run our data center. But 
it doesn't include some of the partners that FSA has.
    Chairman Chaffetz. Okay. So who doesn't it include?
    Mr. Harris. It doesn't include, again, some of the 100 ----
    Chairman Chaffetz. So if you have 120 contractors ----
    Mr. Harris. It doesn't include some of them. I would have 
to get you specific information on, okay, if each one is ----
    Chairman Chaffetz. If you can follow up with us ----
    Mr. Harris. Absolutely, sir.
    Chairman Chaffetz.--and the IG and GAO, that would be 
great.
    Mr. Harris, have you had an intrusion?
    Mr. Harris. I'm sorry, sir. Say that again.
    Chairman Chaffetz. Have you had an intrusion? Have you had 
a data breach?
    Mr. Harris. We have had both incidents and data breaches. 
Specifically, in 2015 we had 91 breaches and we had 200--about 
250 incidents. We have not in the history of the Department--to 
my knowledge we have not had a major incident. And so all of 
them fall into the minor category.
    And if I might give you an example of one?
    Chairman Chaffetz. What was the most significant one?
    Mr. Harris. I would say, sir, that the most significant one 
was in 2012 when, in the FAFSA system for a matter of minutes 
as a result of a--an application glitch, users were able to see 
other users' PII. And again, it was several minutes, but that's 
pretty critical.
    Chairman Chaffetz. Did you report that to the inspector 
general?
    Mr. Harris. I'm sure we did, sir.
    Chairman Chaffetz. In the past year are you aware of any 
foreign, national, state, or other adversary penetrating the 
network? Did any of those data breaches and incidents happen in 
the last year?
    Mr. Harris. Not in the last year, sir, though we constantly 
are threatened by them, but no breaches to my knowledge.
    Chairman Chaffetz. Not in the last year?
    Mr. Harris. That is correct, sir.
    Chairman Chaffetz. How many onsite IT security reviews has 
the Department conducted to date of the contractors that you 
engage with?
    Mr. Harris. Our reviews of our contractor are actually 
constant. We have a security operations center, and we have an 
IV&V contractor that are working daily to review everything 
that our contractor is doing.
    Chairman Chaffetz. Ms. Tighe, what is your view of that?
    Ms. Tighe. I'm aware ----
    Chairman Chaffetz. Sorry, your microphone.
    Ms. Tighe. I'm aware that the Department is taking those 
actions. Some parts--I would also point out that some parts of 
the Department and systems the Department deals with have--and 
it's external business partners like the Title IV services do 
get IT general controls reviews every year because they feed 
into the financial statement audits. So we do have some level 
of assurance outside of the Department that some--that there is 
some IT reviews being done of the Department systems.
    Chairman Chaffetz. All right. Last questions before I 
recognize Mr. Palmer here, departmental policy requires that 
all employees and contractors who have access to Privacy Act 
data have a minimum of a 5c public trust background check, but 
it is also my understanding that roughly less than 5,000 of the 
people who have access have actually had such a background 
check, which leaves us in the math roughly 85,000 individuals 
who have had no background check have access to personal 
information in your databases. Would you disagree with any of 
those numbers? And what are you doing about it?
    Mr. Harris. I would not disagree with that information, 
sir.
    Chairman Chaffetz. So if it is departmental policy to have 
background checks for people who have--remember, we are talking 
about mostly--these are student loans, right? We are talking 
about students and kids here. So when you are talking about 
access to private information and it is departmental policy to 
have a background check, and yet 85,000 of them don't have 
background check, what are you doing to solve that?
    Mr. Harris. Sir, I don't believe that includes the 
individuals who have access to their own information. So the 
85,000 you mention aren't system operators who are actually 
looking at PII. For example, if we have a student looking at 
their own information, they do not need a 5c clearance.
    Chairman Chaffetz. Well, no, that number is in the tens of 
millions of people if not hundreds of millions of people. If 
they are looking at their own information, I am not counting 
that. I am talking about people who have access into the system 
to go look and fish around. And, Ms. Tighe, can you provide 
more information about that?
    Ms. Tighe. Well, I believe that there are--with access to 
the National Student Loan database, just taking that database, 
that there are--our numbers that there are about 97,000 
accounts. This is not--these are non-student accounts. Fifty-
five thousands of those, we should all realize, are at 
institutions of higher education because all the financial aid 
officers in every college and university or other school that 
receives Title IV funding has to access our databases. And I 
think that is the biggest area where you're not seeing the 
background investigations unless that particular college or 
university requires it themselves. But there are other people 
who access who have accounts. They're the Title IV servicers, 
the debt collection entities. There's 22 of those and other 
assorted people who touch our systems.
    Chairman Chaffetz. And we know how integrity-failed the 
debt collection services people are, so, you know, no need for 
a background check there. That is departmental policy. I need 
you to get back to us as to what you are doing to rectify that. 
It is, I think, a huge vulnerability because these are people 
that are authorized. They have the authentication to get in 
there, look around, see the personal identifiable information 
and yet have not had the required background check.
    Mr. Harris. I will do that, Mr. Chairman.
    Chairman Chaffetz. Thank you. I have gone well past my 
time.
    I will recognize the gentleman from Alabama, Mr. Palmer, 
for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    I want to follow up on the question the chairman raised, 
Dr. Harris, about EINSTEIN. During the IG penetration testing 
of EDUCATE, why didn't you detect they were on your servers?
    Mr. Harris. Currently, as I indicated, we have implemented 
NAC. The full implementation, however, is not complete, and we 
plan to complete that this fiscal year.
    Mr. Palmer. So you are saying ----
    Mr. Harris. And I do believe we will be able to see that 
activity then.
    Mr. Palmer. Now, I am asking why you didn't detect it when 
they were on your servers at the time they were doing the 
penetration testing.
    Mr. Harris. We didn't have the tools completely configured.
    Mr. Palmer. Okay. What tools are you missing?
    Mr. Harris. We're not missing any. We just don't have them 
completely configured. For example, NAC has been implemented 
but there's a lot of configure work--configuration work that 
needs to be done for full implementation.
    Mr. Palmer. So you have the tools but you are not able to 
apply them?
    Mr. Harris. We haven't finished the--we haven't completed 
the configuration of it ----
    Mr. Palmer. How ----
    Mr. Harris.--but we plan to do that this fiscal year.
    Mr. Palmer. You should have it done by the end of this 
fiscal year or the calendar year?
    Mr. Harris. By the fiscal year, sir.
    Mr. Palmer. So they will be complete by September 30 of 
'16?
    Mr. Harris. Sir, I'm hoping to complete them by the end of 
the third quarter, not September 30.
    Mr. Palmer. Okay. So that would be ----
    Mr. Harris. And we're aggressively working to actually do 
it sooner than that.
    Mr. Palmer. All right. They will be finished by the end of 
June?
    Mr. Harris. That is correct.
    Mr. Palmer. Okay. Thank you. Dr. Harris, according to the 
Federal IT Dashboard, DOED central processing system carries 
out data matching with at least five different agencies and 
interfaces with DOED's Participation Management, Common 
Origination system, and Virtual Data Center. What is the nature 
of this understanding between agencies?
    Mr. Harris. Beyond the sharing of data, that really is the 
totality of that understanding. We share sensitive data. We 
share important data with which to do better data processing on 
both sides.
    Mr. Palmer. Well, CPS is not PIV-enabled, and if it were to 
be breached, an adversary would have access to sensitive 
personally identifiable information and data that multiple 
agencies rely on. Can you tell me what security measures are in 
place to protect the CPS system?
    Mr. Harris. I apologize, sir. I don't have operational 
oversight of that system and have limited knowledge, but I can 
certainly get you more information on that.
    Mr. Palmer. Who has that information?
    Mr. Harris. The Federal Student Aid CIO.
    Mr. Palmer. Okay. One last question, do you allow employees 
to use your server to access their personal email?
    Mr. Harris. Currently, we do, sir.
    Mr. Palmer. Is that not of concern to you on that ----
    Mr. Harris. It--I'm sorry, sir.
    Mr. Palmer. Well, we have had other hearings on this when 
we were dealing with the breach at OPM, and it turns out that 
the immigration, ICE, had sent out a memo to their employees 
that they could no longer use the Federal server because they 
had multiple breaches, and it turns out that there was a union 
grievance filed and they weren't able to deny their employees 
access to their server. And it appears that that is where one 
of the breaches occurred. I just wonder, as the chairman points 
out, the enormous number of records that could be accessed, if 
you are taking any measures to prevent that.
    Mr. Harris. It's an interesting question, Representative 
Palmer, and it's one that does concern me. We actually met with 
OMB and DHS to talk about the risk level of allowing that kind 
of access. I think the CIO counsel is going to spend more time 
talking about it, but it is something that concerns me. And 
you're right, it is a threat factor.
    Mr. Palmer. Thank you, Mr. Chairman. I yield the balance of 
my time.
    Chairman Chaffetz. I thank the gentleman. I will now 
recognize Mr. Clay of Missouri for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    And, Mr. Wilshusen, the high-risk report GAO released 
earlier this year noted challenges that both the Federal and 
private sector face when it comes to securing personally 
identifiable information. In particular, the 2015 high-risk 
report pointed to the data breaches at Home Depot and Target as 
examples of high-profile breaches in the commercial sector. So 
is it fair to say when it comes to the subject of 
cybersecurity, GAO has paid attention to what has been 
occurring in the private sector?
    Mr. Wilshusen. Yes, it is insofar as these types of 
incidents occur and demonstrate that it isn't strictly--or 
cybersecurity and these intrusions is not strictly a government 
phenomenon.
    Mr. Clay. Now, I understand that when GAO conducted its 
most recent FISMA report on Federal agencies, it wasn't tasked 
with evaluating the private sector. I would like to ask you 
some questions about challenges facing the private sector based 
on your prior work. Are the weaknesses in cybersecurity you are 
aware of in the private sector consistent with what GAO found 
with respect to Federal agencies?
    Mr. Wilshusen. Our review of information security controls 
at private sector organizations is somewhat limited primarily 
to the work that we do in evaluating the security controls of 
our contractors that support the Federal Government. And what 
we have found is that those contractors also have security 
vulnerabilities that are consistent with those that we find on 
agency-operated systems.
    Mr. Clay. So do you think the Federal Government is ahead 
of the private sector when it comes to cybersecurity?
    Mr. Wilshusen. I don't know if I could say that. One thing 
that I could say is that at least the Federal Government, and 
particularly in respect to the types of information security 
policies and guidance that are promulgated by the National 
Institute of Standards and Technology is among the best and are 
sometimes used by private sector organizations.
    Mr. Clay. Okay.
    Mr. Wilshusen. So we do a pretty good job in identifying 
policies and procedures. Where we're challenged is implementing 
them in our information systems controls environments over time 
throughout the entire enterprise.
    Mr. Clay. Ms. Tighe, would you have anything to add?
    Ms. Tighe. No. I would agree that NIST provides very 
significant and complete guidelines for IT--in the area of IT 
security. The challenge is getting them implemented.
    Mr. Clay. Thank you. And, Dr. Harris, anything additional?
    Mr. Harris. I would absolutely concur. In fact, as we work 
with some of our private sector partners, we see that they 
don't use standards as stringent as those that NIST provides.
    Mr. Clay. Thank you all. Thank all of you for your 
responses. May I yield the balance of my time to the ranking 
member?
    Mr. Connolly. I thank my colleague. By the way, I will 
throw you a lifeline, Dr. Harris. We have talked a lot of about 
FSA, but it was Congress acting on the recommendations of a 
previous administration that actually made FSA a PBO, a 
performance-based organization, and even referred to it as--FSA 
is generally siloed from the rest of the Department of 
Education, although its chief operating officer reports to the 
Secretary of Education, as Dr. Harris testified.
    So it is Congress in legislation that we passed in 1997 on 
a bipartisan basis, our former colleagues Howard ``Buck'' 
McKeon and Dan Kildee who actually authored H.R. 2536 that did 
that. So we now need, because of the passage of FITARA, frankly 
to square those two. And I think the current Congress would 
favor the FITARA approach and maybe look a little askance at 
siloing anything in light of technology progressing and the 
threat we are facing.
    If the chair would just indulge me one question and then I 
am done ----
    Chairman Chaffetz. Sure. Yes.
    Mr. Connolly.--if Mr. Mulvaney would--okay. In listening to 
this hearing, I am not sure we are reassured. We dispute the 
``F'' we get in FITARA. We are not fully aware of these other 
rankings that move us to high risk or yellow to red. Systems 
weren't quite in place when the penetration exercise, according 
to Ms. Tighe, ``we could have gone anywhere'' in that exercise, 
very alarming. We only have three data centers but we don't 
know how many our contractors have and we are not really 
entirely responsible for that even though they are in 
possession of data that could be compromised.
    Certainly, take the point, Dr. Harris, that we need to bulk 
up on the talent pool as much as we do resources, but we need 
both. We need both. There is no question about it.
    But at the end of the day, Dr. Harris testified with 
respect to the question of vulnerability, ``we are reasonably 
secure now. I don't want anyone to think otherwise.'' I have 
got to challenge that and I want you, Ms. Tighe, and you, Mr. 
Wilshusen, to respond to that. My question is should Americans 
be concerned that the kind of breach that occurred at OPM 
frankly could occur with respect to at least 50 million 
Americans whose data is in the hands of the Department of 
Education? I am not leaving this hearing feeling that we are 
reasonably secure now. Professionally, is that your judgment? 
Do you share Dr. Harris's confidence that we are reasonably 
secure now?
    Ms. Tighe. I am still concerned about the potential for 
breaches in the Department. I think that the issues we pointed 
to in our current FISMA report, particularly under the areas of 
configuration management and under incident detection are very 
significant, and they really point to the potential for 
significant vulnerabilities. There was also the issue on the 
mainframe in Georgia operated by a subcontractor that we were 
not even able to properly evaluate. And we found privileged 
users with permissions not appropriate. That stuff worries me, 
and I don't feel, you know, as rosy about the picture as Dr. 
Harris. With all that said, I know the Department is working on 
these things.
    Mr. Wilshusen. I would defer to Ms. Tighe in her assessment 
but also just comment on the types of weaknesses that she and 
her team identified at Education as being those types of 
vulnerabilities that can be exploited and can be used to gain 
access and even, you know, potentially hide an intruder's 
presence on a network.
    Mr. Connolly. I thank the chair and I thank Mr. Mulvaney 
for his courtesy.
    Chairman Chaffetz. I will now recognize the gentleman from 
South Carolina, Mr. Mulvaney.
    Mr. Mulvaney. I thank both the gentleman. And I have just 
got a couple of mopping-up questions here at the end so in no 
particular order.
    Mr. Harris, you mentioned a couple different times talent, 
which is something we don't hear much in here. Ordinarily, 
people come in and complain they don't have enough money. I 
have not heard that one before. Let me ask you this. Do you not 
have access--my understanding was that in other areas of the 
Federal Government we have some really, really good people 
working on IT. Do you not have access to their expertise and 
their subcontractors and their experiences?
    Mr. Harris. Thank you so much for the question, 
Representative Mulvaney.
    I'm so glad you raised it because you do have talent across 
the Federal space, in, fact one of the things I am hoping that 
this body will help with is actually centralizing some of that 
talent so a small agency like the Department of Education can 
get more help. But what the Federal--what the private space is 
paying we simply can't match that, and in a lot of instances, 
folks don't see the Department of Education as an exciting 
cyber space to go to. So we're very challenged when we compete 
with other Federal agencies, as well as the private space. So 
we are really hurting from that perspective.
    Mr. Mulvaney. And that is sort of what worries me is that 
because you are not exciting, people actually might be 
attracted to you in terms of being a target.
    Ms. Tighe, I come back to something you said earlier 
about--and I am going to butcher the numbers--97-odd-thousand 
users, and you made an excellent point, which is that there is 
someone in the registrar's office at G.W. who has access to 
this system. Let me ask you this. If I am sitting there and I 
am at G.W. and I am the, you know, little part-time student who 
comes in to work on the FAFSA stuff, what do I need in order to 
get Mr. Chaffetz's student loan information?
    Ms. Tighe. Well, you need his--most financial aid 
administrators--well, you probably need him to either have gone 
to G.W. University ----
    Mr. Mulvaney. Okay.
    Ms. Tighe.--or put that as one of his schools on his 
application. So ----
    Mr. Mulvaney. Okay ----
    Ms. Tighe.--they have a more limited purview than they ----
    Mr. Mulvaney. All right. So if I am sitting there ----
    Ms. Tighe.--have access to.
    Mr. Mulvaney.--and I am the person at G.W. who is--and I 
hate to pick on G.W. but I went to Georgetown ----
    Ms. Tighe. Or his Social.
    Mr. Mulvaney. Yes. I went to Georgetown so I love to pick 
on G.W.
    Ms. Tighe. Yes.
    Mr. Mulvaney. You are telling me I can only gain access to 
people who have actually either gone to G.W. or checked that on 
one of their FAFSA forms?
    Ms. Tighe. Yes, unless they, for whatever reason, would 
have their Social Security number.
    Mr. Mulvaney. And that was my next question ----
    Ms. Tighe. Yes.
    Mr. Mulvaney.--which is if I have Mr. Chaffetz's Social 
Security number and he is in the system, I can get him, can't 
I?
    Ms. Tighe. That's my understanding.
    Mr. Mulvaney. So that means that if I am able to acquire 
that Social Security number from any other source and I have 
access to your system at tens of thousands of terminals, I can 
get just about anything?
    Ms. Tighe. That's correct.
    Mr. Mulvaney. Now, let me drill down on that a little bit. 
What is ``just about anything'' because when I--I got a little 
notice from I think it was Target--my wife did--saying that 
they had been hacked. I get all that. That is right. That 
doesn't bother me too much. I think we use the same credit card 
there and I don't use anything else at Target. If you hack into 
Mr. Chaffetz's records at the Department of Education, what 
type of information can you get on him?
    Ms. Tighe. Well, you can--obviously, you can get the 
financial information reported in the application for Federal 
Student Aid and ----
    Mr. Mulvaney. Does that include his parents' income?
    Ms. Tighe. Yes, it does.
    Mr. Mulvaney. Does it include any bank account information? 
We didn't have these forms when I was in school ----
    Ms. Tighe. Do we--is it ----
    Mr. Mulvaney.--so I am not really sure ----
    Ms. Tighe.--bank account information? Yes. I think--believe 
there is banking information.
    Mr. Mulvaney. What about stocks and bond account 
information?
    Ms. Tighe. I wouldn't think that would be available.
    Mr. Mulvaney. Okay. All right. What else can you get just 
out of curiosity?
    Ms. Tighe. Let me get back to you on a full accounting ----
    Mr. Mulvaney. Okay.
    Ms. Tighe.--of what the--is available.
    Mr. Mulvaney. And I hope I am making my point, which is 
that when Target got hacked ----
    Ms. Tighe. Yes.
    Mr. Mulvaney.--I didn't lose a lot of concern over it. If 
someone had my bank account records, that might--including, I 
guess, account numbers because I guess you all at some point 
verify that information or can ----
    Ms. Tighe. Well, there is information related to the 
students'--for disbursements as student aid, you know, moving 
money into the students' bank accounts.
    Mr. Mulvaney. Sure. Okay. And I am sorry; I lost track of 
where I was going after that. So I would be happy to yield to 
the chair whatever 40 seconds I have left. But I thank you all 
for your information and looking forward to going forward.
    Chairman Chaffetz. If the gentleman will yield, there are 
lifetime loan limits, right? So talk to the scope of time here 
that we are talking about.
    Ms. Tighe. My understanding is in the National Student Loan 
database is that once you get money, your information is kept 
in there for--like I don't think there's a deadline or cutoff 
for when that information gets moved because there are 
statutory limits on the amount of student aid one can take so 
they have to keep track of it over a lifetime. So they--it's--
the information is retained for a very long time.
    Chairman Chaffetz. And how many people in that database?
    Ms. Tighe. There are, I think, currently about 85--at least 
somewhere over 75 million student accounts or student account 
information.
    Chairman Chaffetz. And in addition to that, there are other 
individuals, right? So how many individuals are we ultimately 
talking about?
    Ms. Tighe. Well, Student Loan database--the National 
Student Loan database will have just students who get financial 
aid. There are other systems the Department has like the CPS 
system where you will have the parent information also.
    Chairman Chaffetz. So how many Americans? What is the grand 
total of number of Social Security numbers--we had ----
    Ms. Tighe. Well, the 130--we--by our count from the OIG's 
estimation of looking at the Department's databases we have 
over 139 million unique Social Security numbers. And that's 
just in the student loan application and the PIN registry 
systems.
    Chairman Chaffetz. Does the gentleman yield back?
    Mr. Mulvaney. Yes, sir.
    Chairman Chaffetz. In wrap-up here, I want to address 
something just to clarify. You have a responsibility, Ms. 
Tighe, as the inspector general to be able to go in and look at 
the contractors and the subcontractors, but you have had 
difficulty gaining access to some of those systems, 
specifically the COD or the Common Origination and Disbursement 
system. Have you been able to look at that system?
    Ms. Tighe. No, we were not able to. We included the 
mainframes of the Department as part of our testing this year. 
Two of those mainframes are at the Virtual--the VDC, the 
Virtual Data Center. One of them is in Columbus, Georgia, and 
operated by a company called TSYS under a subcontract with the 
Federal Student Aid organization. We entered into an agreement 
with them that outlined everything we needed. We gave them a 
timetable.
    They did not by any stretch of the imagination meet that 
timetable, and in the end, they were not able to provide us 
very critical information for us to do a full vulnerability 
testing. They limited our information in the end to the 
education environment. The problem is that mainframe in Georgia 
is a shared environment with their private customers.
    And I understand their reluctance, but the fact remains is, 
given the problems we found with what--just what they were able 
to provide us, seeing privileged users that had excessive 
permissions and the like, I worry about what other users we 
were not able to see have access to in our data.
    Chairman Chaffetz. Well, we want to be supportive of the 
inspector general community and the good people at TSYS. Is 
that their name? They are about to get a nasty-gram from the 
United States Congress, and we will use every power we have to 
yank them up here and make sure that you get the access to that 
information so ----
    Ms. Tighe. I appreciate it.
    Chairman Chaffetz.--the folks down there can look forward 
to that. We are going to make sure you have the access you 
need.
    Mr. Harris, last bit of questions. Talk to me about how 
dilapidated, outdated some of the operating systems software 
that you are having to deal with. Do you use a COBOL, for 
instance?
    Mr. Harris. No, sir, we do not use COBOL.
    Chairman Chaffetz. Do ----
    Mr. Harris. On the FSA side I'm not sure if they still have 
any COBOL-based systems, but I can get that information for 
you.
    Chairman Chaffetz. But all the other systems, you are not 
aware of any ----
    Mr. Harris. Do not use COBOL, sir, no.
    Chairman Chaffetz. Do you use DOS or what ----
    Mr. Harris. No, sir. We're primarily a Windows-based. We 
use a lot of Linux, Unix. However, it's not just the operating 
system; it's the version.
    Chairman Chaffetz. Sure.
    Mr. Harris. When you get past N minus 1 and the vendor is 
no longer patching it, you have a problem.
    Chairman Chaffetz. So how old--what Windows operating 
systems are you using? And it is probably a whole gambit, 
right?
    Mr. Harris. It's a gambit.
    Chairman Chaffetz. How old is the worst? I mean if you were 
to walk around say, oh, my goodness ----
    Mr. Harris. It's--probably the worst would probably be five 
versions old.
    Chairman Chaffetz. So like what is that, Windows 95, 97?
    Mr. Harris. Probably 97.
    Chairman Chaffetz. Ninety-seven still? And they are not 
even servicing that at Microsoft anymore?
    Mr. Harris. That is correct. That is correct.
    Chairman Chaffetz. So there are no security patches being 
updated? The ----
    Mr. Harris. Not for those, sir, but to be fair, many of the 
systems using those operating systems do not have sensitive 
data. I don't want to suggest that there is student information 
sitting on systems that use Windows 97 but ----
    Chairman Chaffetz. Understood, but ----
    Mr. Harris.--these are OSs.
    Chairman Chaffetz. But you feel for the employee, who is 
their good, patriotic, hardworking ----
    Mr. Harris. Sure.
    Chairman Chaffetz.--employee who is going into work trying 
to negotiate a Windows 97 operating system as opposed to 
something a little bit more up-to-date.
    Listen, this has been very productive. I appreciate all the 
work that not only the three of you individually do but that 
your organizations do. We have got a lot of good people who try 
to do the right thing, they work hard, and I want to carry back 
that, you know, how much we care and appreciate them and what 
they do from the GAO to the inspector general to the Department 
of Education.
    That is the beauty--and I say this often in this committee. 
The beauty of the United States of America is that the Congress 
does ask hard questions. That is what we are supposed to be 
doing. That is what makes us unique in this country is we hold 
people accountable, we ask hard questions, and we have the good 
dialogue back and forth.
    So I appreciate the attitude and approach, Mr. Harris, that 
you have had here, but we do ultimately want to not only be the 
Oversight Committee but the Government Reform Committee. To the 
extent we can help you with these issues, we want to do that.
    Mr. Connolly. And, Mr. Chairman ----
    Chairman Chaffetz. Happy to yield.
    Mr. Connolly.--we do have--thank you, Mr. Chairman. We do 
have a legislative item that sooner or later we are going to 
have to review, and that is this apparent conflict between what 
FITARA is trying to get at, which is to enhance Dr. Harris's 
authority and responsibility, and the older legislation from 
1997 that may have been appropriate when Windows 97 was still 
operating, but we also need to upgrade our own legislative 
mandate because Dr. Harris is handicapped by statute. And we 
may have to address that ----
    Chairman Chaffetz. And that is where I think the E-
Government Act of 2002 is actually what we should be looking 
at, but I look forward to working with you because ----
    Mr. Connolly. Yes.
    Chairman Chaffetz.--you should have not only the 
responsibility but the authority, and there should be no 
discrepancy there. And we will work with you on that.
    Again, appreciate the participation of all the members. The 
committee stands adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
